<html>
<title> - THE SCIENCE OF DYSLEXIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                        THE SCIENCE OF DYSLEXIA

=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
              
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 18, 2014

                               __________

                           Serial No. 113-95

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
       
       
  
                      U.S. GOVERNMENT PUBLISHING OFFICE 

92-328 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio

                            C O N T E N T S

                           September 18, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    10

                               Witnesses:

                                Panel I

Hon. Bill Cassidy, Member, U.S. House of Representatives
    Oral Statement...............................................    11
    Written Statement............................................    14

Hon. Julia Brownley, Member, U.S. House of Representatives
    Oral Statement...............................................    16
    Written Statement............................................    18

                                Panel II

Dr. Sally Shaywitz, Audrey G. Ratner Professor in Learning 
  Development, Yale University School of Medicine and Co-
  Director, Yale Center for Dyslexia and Creativity, Yale 
  University
    Oral Statement...............................................    21
    Written Statement............................................    23

Mr. Max Brooks, Author and Screenwriter
    Oral Statement...............................................    37
    Written Statement............................................    39

Ms. Stacy Antie, Parent and Advocate
    Oral Statement...............................................    44
    Written Statement............................................    44

Dr. Peter Eden, President, Landmark College
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. Guinevere Eden, Director, Center for the Study of Learning 
  (CSL) and Professor, Department of Pediatrics, Georgetown 
  University Medical Center
    Oral Statement...............................................    73
    Written Statement............................................    75

Discussion.......................................................    83

             Appendix I: Answers to Post-Hearing Questions

Dr. Sally Shaywitz, Audrey G. Ratner Professor in Learning 
  Development, Yale University School of Medicine and Co-
  Director, Yale Center for Dyslexia and Creativity, Yale 
  University.....................................................    96

Mr. Max Brooks, Author and Screenwriter..........................    98

Ms. Stacy Antie, Parent and Advocate.............................    99

Dr. Peter Eden, President, Landmark College......................   101

Dr. Guinevere Eden, Director, Center for the Study of Learning 
  (CSL) and Professor, Department of Pediatrics, Georgetown 
  University Medical Center......................................   105

            Appendix II: Additional Material for the Record

Written statement submitted by Matt Mountain Director, Space 
  Telescope Science Institute, and Professor, Physics and 
  Astronomy, The Johns Hopkins University........................   108

 
                        THE SCIENCE OF DYSLEXIA

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 11:21 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Good morning to everyone, and 
welcome to today's hearing titled ``The Science of Dyslexia,'' 
and I want to say at the outset, it is nice to see such 
interest. This is one of the best attended hearings we have 
had, and there is almost a festive atmosphere in the room, and 
I think that is because we all hope some good will come out of 
this hearing. There is certainly a common bond that unites all 
of us in this room as well, and we have no adverse witnesses, 
so it all adds up to what we expect to be a very productive 
hearing.
    And before we start, too, and before I recognize myself and 
the Ranking Member for an opening statement, as much work and 
effort has gone into this hearing as I think with any other 
hearing we have possibly had, and I want to thank those who 
have done so much and worked so hard to get us all here and to 
focus on such an important subject, so I want to recognize our 
Chief of Staff, Jennifer Brown, to my left, Chris Shank to my 
left over here, Richard Yamada, who is sitting next to me, 
Kirsten Duncan and Christian Rice as well, who I think are to 
the left here too, but they have put in a great amount of time 
and effort, and we thank them for their contributions.
    Well, welcome everyone to today's hearing on the science of 
dyslexia. One out of every five people struggle with dyslexia 
in its various forms. In fact, it is the most common reading 
disability in America. Yet many Americans remain undiagnosed, 
untreated, and silently struggle with school or work.
    People with dyslexia think in a way that others do not. But 
typically in our school systems today, there is not 
recognition, early detection, or enough teachers who are 
trained to spot symptoms of dyslexia early enough to get the 
students the intervention they need.
    That is why we have recently seen grassroots groups, like 
Decoding Dyslexia, form nationwide and more specialized schools 
started to fill the gap. Unfortunately, not everyone has access 
to these types of schools and the learning strategies they 
instill in their students to help them become successful.
    I hope today's hearing will serve two purposes: first, 
contribute to our understanding as policymakers about the 
neuroscience of dyslexia, and secondly, build awareness of 
dyslexia's effect on those of all ages if we fail to diagnose 
it.
    Some may ask why the Science Committee chooses to tackle 
the issue of dyslexia. My response is simple: many scientists, 
innovators and other outside-the-box thinkers are dyslexic, 
such as Albert Einstein, Leonardo da Vinci, and Galileo, to 
name a few. Many who have dyslexia have used their unique 
outlook on the world to their advantage. Filmmakers, actors and 
entertainers such as Steven Spielberg, Henry Winkler, and Jay 
Leno use their gift to create one-of-a-kind entertainment for 
us all to enjoy.
    In modern times, Dr. Carol Greider of the Johns Hopkins 
School of Medicine, who won the Nobel Prize in 2009, has 
dyslexia. John Chambers, the long-time CEO of Cisco Systems, 
also has dyslexia. In a recent interview, Chambers spoke about 
his struggles: ``It would surprise you how many government and 
business leaders have dyslexia. Some people view it as a 
weakness and maybe it is, but because of my weakness I have 
learned other ways to accomplish the same goal with faster 
speed. So in math, I can do equations faster by eliminating the 
wrong answers quicker than I can get the right answer. It is 
one of the reasons I talk to young people with dyslexia pretty 
regularly. You have to have role models.''
    We need to unleash the intelligence of people with 
dyslexia, like Einstein, da Vinci, Carol Greider, and John 
Chambers. We cannot afford for young, talented students not to 
reach their potential.
    And I am glad to see the National Science Foundation fund 
studies in how astrophysicists with dyslexia view the universe 
differently due to the visual-spatial skills common in 
dyslexics. In fact, Matt Mountain, the Lead Astronomer and 
Director of the Hubble Space Telescope Science Institute, has 
dyslexia, and without an objection, we will insert his 
testimony into the record at this point.
    [The information appears in Appendix II]
    Chairman Smith. Also, the National Institutes of Health is 
studying the neuroscience of dyslexia, including the work of 
our witnesses, Dr. Sally Shaywitz and Dr. Guinevere Eden, as 
well as funding studies on how dyslexic students can best 
learn. Beyond the research, we will hear from someone with 
dyslexia, the parent of a dyslexic student, and an educator for 
those with learning disabilities like dyslexia.
    I have a personal connection with dyslexia since my niece 
is dyslexic. And a favorite, young 10-year-old named Leighton, 
a young friend who has dyslexia, has been with me on a Texas 
ranch. He may be challenged by language arts but he makes up 
for it with perfect eyesight and exceptional accuracy with his 
BB gun. And you don't want to compete with him playing 
Minecraft on his iPad.
    Over 80 Members of Congress have joined the bipartisan 
Congressional Dyslexia Caucus co-chaired by Representative Bill 
Cassidy and Science Committee Member Julia Brownley. I thank 
them both for their work in helping educate the public about 
dyslexia and for advocating policies that support those 
individuals who have dyslexia.
    I also want to acknowledge one of my constituents, Robbi 
Cooper, who is to my left, who traveled from Austin, Texas, to 
be here today. She has shared many stories with me about her 
son Ben who has dyslexia.
    More parents as well as other experts on dyslexia will be 
sharing their stories at a luncheon next door in Rayburn Room 
2325 immediately following this hearing, and we welcome all of 
you all to attend that luncheon.
    For most people, dyslexia is a disability. But if we change 
the way we approach it, we can turn disability into possibility 
and give millions of individuals a brighter and more productive 
future.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Welcome everyone to today's hearing on the Science of Dyslexia. One 
out of every five people struggle with dyslexia in its various forms. 
In fact, it is the most common reading disability in America. Yet many 
Americans remain undiagnosed, untreated, and silently struggle with 
school or work.
    People with dyslexia think in a way that others do not. But 
typically in our school systems today there is not recognition, early 
detection, or enough teachers who are trained to spot symptoms of 
dyslexia early enough to get the students the intervention they need.
    That is why we have recently seen grass roots groups, like Decoding 
Dyslexia, form nationwide and more specialized schools started to fill 
the void. Unfortunately, not everyone has access to these types of 
schools and the learning strategies they instill in their students to 
help them become successful.
    I hope today's hearing will serve two purposes. First, contribute 
to our understanding as policy-makers about the neuroscience of 
dyslexia. And secondly, build awareness of dyslexia's effect on those 
of all ages if we fail to diagnose it.
    Some may ask why the Science Committee chooses to tackle the issue 
of dyslexia. My response is simple: many scientists, innovators and 
other outside-the-box thinkers are dyslexic, such as Albert Einstein, 
Leonardo da Vinci, and Galileo, to name a few.
    Many who have dyslexia have used their unique outlook on the world 
to their advantage. Filmmakers, actors and entertainers such as Steven 
Spielberg, Henry Winkler, and Jay Leno used their gift to create one-
of-a-kind entertainment for us all to enjoy.
    In modern times, Dr. Carol Greider of the Johns Hopkins School of 
Medicine, who won the Nobel Prize in 2009, has dyslexia. John Chambers, 
the long-time CEO of Cisco Systems, also has dyslexia. In a recent 
interview, Chambers spoke about his struggles with dyslexia, saying:

      ``It would surprise you how many government and business leaders 
[have] dyslexia. Some people view it as a weakness and maybe it is. 
Because of my weakness I've learned other ways to accomplish the same 
goal with faster speed. So in math, I can do equations faster by 
eliminating the wrong answers quicker than I can get the right answer. 
It's one of the reasons I talk to young people with dyslexia pretty 
regularly. You have to have role models.''

    We need to unleash the intelligence of people with dyslexia, like 
Einstein, da Vinci, Carol Greider, and John Chambers. We cannot afford 
for young, talented students not to reach their potential.
    I am glad to see the National Science Foundation fund studies in 
how astrophysicists with dyslexia view the universe differently due to 
the visual-spatial skills common in dyslexics. In fact, Matt Mountain, 
the lead astronomer and director of the Hubble Space Telescope Science 
Institute, has dyslexia.
    Also, the National Institutes of Health is studying the 
neuroscience of dyslexia, including the work of our witnesses, Dr. 
Sally Shaywitz and Dr. Guinevere Eden, as well as funding studies on 
how dyslexic students can best learn.
    Beyond the research, we will hear from someone with dyslexia, the 
parent of a dyslexic student, and an educator for those with learning 
disabilities like dyslexia.
    I have a personal connection with dyslexia since my niece is 
dyslexic. And a favorite, young 10 year old friend named Leighton, who 
has dyslexia, has been with me on a Texas ranch. He may be challenged 
by language arts but he makes up for it with perfect eyesight and 
exceptional accuracy with his bb gun. And you don't want to compete 
with him playing Minecraft on his Ipad.
    Over 80 members of Congress have joined the bipartisan 
Congressional Dyslexia Caucus co-chaired by Rep. Bill Cassidy and 
Science Committee member Julia Brownley. I thank them both for their 
work in helping educate the public about dyslexia and for advocating 
policies that support those individuals who have dyslexia.
    I also want to acknowledge one of my constituents, Robbi Cooper, 
who traveled from Austin, Texas, to be here today. She has shared many 
stories with me about her son Ben who has dyslexia.
    More parents as well as other experts on dyslexia will be sharing 
their stories at a luncheon next door in Rayburn room 2325 immediately 
following this hearing. All are welcome to attend.
    For most people, dyslexia is a disability. But if we change the way 
we approach it, we can turn disability into possibility--and give 
millions of individuals a brighter and more productive future.

    Chairman Smith. That concludes my remarks, and the 
gentlewoman from Texas, the Ranking Member of the Committee, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing, and I want to thank the two Co-
Chairs of the Congressional Dyslexia Caucus, Representative 
Brownley and Representative Cassidy, for being here today, and 
I look forward to your testimony.
    I have known a number of people who have dyslexia. None of 
them I have found to be dumb. Even though dyslexia is a 
lifelong condition, with proper diagnosis and instruction, 
individuals with dyslexia can succeed in school and go on to 
have successful careers. We have an example of someone with 
dyslexia who has a successful career with us here today, and I 
look forward to hearing his story, Mr. Brooks.
    As the Science, Space, and Technology Committee, we oversee 
agencies that fund research from the very basic to development 
and deployment across nearly the entire portfolio of the 
Federal R&D. We don't directly oversee the lead agency for 
dyslexia research, which is NIH. However, we have the important 
responsibility for oversight of the National Science 
Foundation, which supports fundamental research across a number 
of scientific fields that provide a foundation for dyslexia 
research. The National Science Foundation, as a leader in 
educational research, also funds learning science directly and 
indirectly related to dyslexia.
    A significant amount of the National Science Foundation 
research relevant to dyslexia is funded out of the Social, 
Behavioral, and Economic Sciences Directorate and the Education 
and Human Resources Directorate. This is why I have fought hard 
against efforts in this Committee to slash funding for these 
important NSF directorates, which fund valuable research that 
turns out to have broader, and often unanticipated, 
applications to other high-priority research as we are seeing 
here today.
    Now, I know that the Chairman has asked me not to mention 
this because he didn't want this to be a partisan hearing. It 
is not partisan with me, it is reality. Additionally, research 
funding by Biological Sciences Directorate also contributes to 
funding foundational knowledge about the neuroscience behind 
dyslexia. The National Science Foundation Science of Learning 
Centers Program supports interdisciplinary centers that advance 
learning research, and I look forward to hearing from Dr. 
Guinevere Eden about the Gallaudet University Center, of which 
she is a part. That center focuses on visual information 
learning research.
    Additionally, I am interested in hearing from Dr. Peter 
Eden about the National Science Foundation-funded research that 
is being conducted at Landmark College. This research is 
investigating important questions, including how students with 
learning disabilities best learn STEM, and how online 
educational environments could be adapted for students' 
learning disabilities. This research has the potential to 
improve educational outcomes of students with learning 
disabilities, including dyslexia, and perhaps for all students.
    This learning demonstrates how important it is to fund our 
research agencies at appropriate levels. We have learned so 
much about dyslexia, but have so much more to learn. Without 
learning and--without funding research into this area, 
including the foundational research that underlies the more 
applied work, we will not discover the biological basis for 
dyslexia, we will not create the next generation of treatments 
for dyslexia, and we will not determine the educational 
environments and techniques that are best for individuals with 
dyslexia.
    I want to thank our witnesses. I am sorry that Ms. Brownley 
had to change her testimony but I hope we will keep in mind as 
you make your statements that the only way we reach these goals 
is to fund the research.
    Thank you, and I yield back, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman for holding this hearing.
    And I want to thank the two co-chairs of the Congressional Dyslexia 
Caucus, Representatives Brownley and Cassidy, for being here today. I 
look forward to hearing your testimony.
    I have known a number of people who have dyslexia. Even though 
dyslexia is a lifelong condition, with proper diagnosis and 
instruction, individuals with dyslexia can succeed in school and go on 
to have successful careers. We have an example of someone with dyslexia 
who has a successful career here with us today. I look forward to 
hearing your story, Mr. Brooks.
    As the Science, Space, and Technology Committee, we oversee 
agencies that fund research from the very basic to development and 
deployment across nearly the entire portfolio of federal R&D. We don't 
directly oversee the lead agency for dyslexia research, which is NIH. 
However, we do have the important responsibility for oversight of the 
National Science Foundation, which supports fundamental research across 
a number of scientific fields that provide a foundation for dyslexia 
research. The National Science Foundation, as a leader in educational 
research, also funds learning science directly and indirectly related 
to dyslexia.
    A significant amount of the NSF research relevant to dyslexia is 
funded out of the Social, Behavioral, and Economic Sciences Directorate 
and the Education and Human Resources Directorate. That is why I have 
fought efforts in this Committee to slash funding for these important 
NSF Directorates, which fund valuable research that turns out to have 
broader, and often unanticipated, applications to other high-priority 
research--as we are seeing here today. Additionally, research funded by 
the Biological Sciences Directorate also contributes to foundational 
knowledge about the neuroscience behind dyslexia.
    The NSF's Science of Learning Centers Program supports 
interdisciplinary centers that advance learning research. I look 
forward to hearing from Dr. Guinevere Eden about the Gallaudet 
University Center of which she is a part; that center focuses on visual 
information learning research.
    Additionally, I am interested in hearing from Dr. Peter Eden about 
the NSF-funded research that is being conducted at Landmark College. 
This research is investigating important questions, including how 
students with learning disabilities best learn STEM, and how online 
educational environments could be adapted for students with learning 
disabilities. This research has the potential to improve educational 
outcomes for students with learning disabilities, including dyslexia, 
and perhaps for all students.
    This hearing demonstrates how important it is to fund our research 
agencies at appropriate levels. We have learned so much about dyslexia, 
but have much more to learn. Without funding research into this area, 
including the foundational research that underlies the more applied 
work, we will not discover the biological basis for dyslexia. We will 
not create the next generation of treatments for dyslexia. And we will 
not determine the educational environments and techniques that are best 
for individuals with dyslexia.
    I want to thank the witnesses on both panels for being here today. 
I look forward to their testimony and the Q&A.
    Thank you, Mr. Chairman and I yield back the balance of my time.

    Chairman Smith. I think it is safe to say that everyone in 
this room favors more money for research in regard to dyslexia. 
It is clearly in the national interest for us to do so.
    I would like to recognize our two witnesses, and both are 
Members of Congress, on our first panel, and our first witness 
is the Hon. Bill Cassidy, who represents Louisiana's 6th 
Congressional District. Prior to his election to Congress, 
Representative Cassidy served in the Louisiana State Senate. He 
also served as an Associate Professor of Medicine at Louisiana 
State University and taught doctors-in-training at the Earl 
Long Hospital in Baton Rouge. Representative Cassidy serves on 
the Energy and Commerce Committee and is a Co-Chair of the 
bipartisan Congressional Dyslexia Caucus. Representative 
Cassidy received his undergraduate and medical degrees from 
Louisiana State University.
    Our next witness is a Science Committee Member herself, 
Representative Julie Brownley, who represents California's 26th 
Congressional District. Representative Brownley began her 
career in public service as a school board member in 
California. She also served in the California State 
Legislature. Prior to her career in public service, 
Representative Brownley worked in marketing in private 
industry. In addition to her being a Member of the Science 
Committee, she also serves on the Veterans Affairs Committee 
and is a Co-Chair of the bipartisan Congressional Dyslexia 
Caucus. Representative Brownley graduated from George 
Washington University and earned an MBA from American 
University.
    We welcome both of you, of course, for many reasons, and 
Dr. Cassidy, if you will begin?

              TESTIMONY OF THE HON. BILL CASSIDY,

             MEMBER, U.S. HOUSE OF REPRESENTATIVES

    Dr. Cassidy. Thank you, Chairman Smith and Ranking Member 
Johnson, for inviting me to speak, for us to be here for this 
bipartisan meeting to bring attention to the science of 
dyslexia.
    As you said, Mr. Chairman, 20 percent of the U.S. 
population is dyslexic, dyslexia affects as many as 10 million 
children, boys, girls, all ethnic, socioeconomic and geographic 
regions of our country.
    It is an important issue to me as a parent and as a 
Congressman. A couple of years ago, my youngest daughter was 
diagnosed with dyslexia. I shouldn't be upset because it is 
only a diagnosis. On the other hand, the struggles we had to do 
to have my daughter accommodated were something that I wouldn't 
care for other parents. So again, I thank you.
    Now, prompted by concerns about my daughter and my 
constituents' children, my wife and I set out to learn as much 
as we could about dyslexia, and we were amazed at how much is 
known and yet not incorporated into public policy. Once more, 
thank you for highlighting the science.
    Debra Stark is here, and you know, Debra has a child with 
Pete Stark with dyslexia, and my wife came to a conference that 
she sponsored here with the Shaywitzes, and Pete and are I are 
good husbands. We did exactly what our wives told us to do. We 
co-founded the Congressional Dyslexia Caucus. Pete has left 
Congress and so now Julia is also the Co-Chair, and I 
appreciate that. And the purpose of the caucus is to educate 
other Members of Congress and advance policies, to break down 
barriers faced by dyslexics.
    Now, I firmly believe by raising awareness of dyslexia we 
can change the way we educate our children and assist millions 
of children to get onto the pathway of success. Now, part of 
this is the resolution that the two of us introduced. It urges 
the House of Representatives to call upon schools along with 
state and local educational agencies to address the 
implications that dyslexia has on a student's education, and we 
now have over 100 Members of Congress on this resolution.
    Now, dyslexia robs an individual of the ability to read 
quickly and automatically and to retrieve spoken words easily 
but it does not dampen their creativity and ingenuity. As you 
mentioned, some of the best and brightest among us are 
dyslexics. A few examples: Charles Schwab and the late Steve 
Jobs.
    Now, if dyslexia is identified in elementary school and 
appropriate resources are made available, America can have more 
teachers, scientists, entrepreneurs, Charles Schwabs and Steve 
Jobs.
    Now, science shows the reading pathway in the brain of 
those who are dyslexic is different. MRIs show a specific 
disruption of the reading system. Those affected need an 
evidence-based curriculum addressing this reading disruption. 
Now, unless accommodations are made, curriculums and trained 
teachers are applied that correspond to the science of 
dyslexia, children will languish in the classroom. A one-size-
fits-all approach does not meet the needs of a dyslexic.
    Now, for those with money, there are excellent schools in 
areas of the country where your child will learn to read and 
have all the opportunities that reading allows. But if a family 
cannot afford a $10,000 to $50,000 annual tuition, the option 
is often a traditional public school in which dyslexics are 
mainstreamed, which is to say, they don't have this particular 
curriculum, will not likely receive the remediation they need 
and have the future that the inability to read predicts.
    So I applaud schools and educators who have embraced 
science by providing students with the proper educational 
environment and curriculum that allows them to thrive 
personally and academically. There are schools in Louisiana, 
like the Louisiana Key Academy--we will hear from a parent 
whose child attends that school--in Baton Rouge and the Max 
Charter School in Thibodaux, Louisiana, that specialize in 
teaching dyslexic students. But these schools are too few and 
far between. We need more schools to embrace and replicate this 
model so that students can achieve their fullest potential.
    You mentioned there was a festive attitude. There is a 
festive attitude. If you are a parent or a child who has had 
this condition and no one ever seemed to acknowledge it, the 
science was hocus pocus, they didn't accept it, even though the 
science is real, you are celebrating that this Committee is 
elevating the status of that science. So I believe that we can 
come together on behalf of the children we love and the Nation 
we serve and work in a bipartisan and bicameral capacity. 
Greater strides need to be made in ensuring that every dyslexic 
child and adult has a chance to read, to learn, to demonstrate 
and to realize his or her full potential.
    So thank you again for holding this hearing and giving the 
science behind dyslexia the attention it deserves. Hopefully, 
our work with the resolution, the caucus, and this hearing will 
have a positive impact upon society and everyone striving to 
learn with dyslexia.
    [The prepared statement of Dr. Cassidy follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Cassidy, and Representative 
Brownley.

             TESTIMONY OF THE HON. JULIA BROWNLEY,

             MEMBER, U.S. HOUSE OF REPRESENTATIVES

    Ms. Brownley. Thank you, and good morning to you all, and I 
too want to begin by thanking Chairman Smith and Ranking Member 
Johnson for your leadership, and for inviting me to testify 
this morning about dyslexia. I also want to thank the witnesses 
who have come here to discuss their research and experiences 
with dyslexia.
    When my daughter Hannah struggled to learn to read in third 
grade, then fourth grade and fifth grade, like any parent I was 
completely panicked about what to do next. It was really 
Hannah's dyslexia, and my own learning to navigate the school 
system, where I frankly witnessed the good, the bad and the 
ugly that surely led me to public service, first, as you 
mentioned, as a school board member, then as a member of the 
California State Legislature, and now in Congress.
    This spring, Hannah received her master's degree in 
international studies and is now overseas saving the world with 
a NGO in Kenya, Africa. She speaks three languages and, not 
surprisingly, she still misspells in each one of them. I could 
not be prouder of her. But for every success story like my 
daughter Hannah, there are countless others who do not succeed.
    Learning disabilities like dyslexia and attention-related 
disorders affect as many as one in five children in the United 
States. According to the National Center for Learning 
Disabilities, nearly half of secondary students with learning 
disabilities like dyslexia perform more than three grade levels 
below their enrolled grade in essential academic skills--45 
percent in reading, 44 percent in math. Twenty percent of 
students with a learning disability drop out of high school, 
compared to just eight percent of students in the general 
population. That is millions of American children who aren't 
reaching their full potential.
    However, advancements in cognitive science are teaching us 
much more about how the brain develops and how children learn. 
My hope is that today's hearing will inform lawmakers about how 
to better translate groundbreaking research to innovative 
education policy that will make a difference in the lives of 
millions of Americans with dyslexia. Our education system needs 
to do a better job training teachers to recognize and 
effectively educate students with dyslexia. We need to provide 
our schools with the resources to incorporate assistive 
technologies, such as audiobooks and speech-to-text interfaces, 
in the classroom, as well as support services to ensure every 
child has an equal opportunity to succeed.
    The Federal Government also needs to meet its obligations 
to our schools. For decades, Congress has failed to meet its 40 
percent financial commitment for special education costs under 
the Individuals with Disabilities Education Act, placing a 
heavier and heavier burden on states and local schools. 
Congress also needs to increase its investment in scientific 
research on dyslexia.
    I am sure many of my colleagues have heard from frustrated 
parents in their districts who are very concerned about their 
children with dyslexia--will they be allowed to take advanced 
placement courses, or pursue a passion like music or science? 
Will they get reasonable accommodations on state tests and 
college entrance exams? What will happen when their children 
graduate from high school and make the transition to college?
    One of our Committee's most important missions is creating 
a 21st century workforce of engineers, scientists, and STEM 
professionals. To accomplish that goal, we need to make sure 
every student has the support they need from their educators, 
parents, their communities to succeed. Students with dyslexia 
are smart and capable and perhaps uniquely qualified because of 
their out-of-the-box way of attacking problems and processing 
information, but misconceptions about dyslexia too often result 
in a focus on a disability rather than an ability. Today's 
panelists will demonstrate that this community of young people 
have extraordinary strengths, and that ignoring dyslexics costs 
us all.
    If you think that more should be done to address dyslexia, 
as my Dyslexia Caucus Co-Chair has already mentioned, please 
cosponsor our Dyslexia Caucus bipartisan resolution, H.R. 456. 
We already have 107 cosponsors, and we would welcome your 
support.
    And with that, I thank you, Mr. Chairman, and I yield back 
the balance of my time.
    [The prepared statement of Ms. Brownley follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Representative Brownley, and I 
hope every Member of the Science Committee will cosponsor that 
resolution and we will urge them to do so.
    Thank you both for your testimony. We will have some 
questions that will be submitted perhaps by Members that will 
be in writing and perhaps you can get back to us when they 
submit those questions.
    We will now move to our next panel. Of course, Ms. Brownley 
is a Member of this Committee, and Dr. Cassidy, if you would 
like to join us up here, you are welcome to do that as well, 
and again, thank you both.
    Let me introduce our second panel of witnesses, and our 
first witness is Dr. Sally Shaywitz, an Audrey G. Ratner 
Professor in Learning Development at the Yale University School 
of Medicine and Co-Director of the Yale Center for Dyslexia and 
Creativity. Dr. Shaywitz has authored more than 200 scientific 
articles and books, and together with her husband, Dr. Bennett 
Shaywitz, she is the originator of the Sea of Strength's model 
of dyslexia. Dr. Shaywitz is also an elected Member of the 
Institute of Medicine of the National Academy of Sciences. She 
received her bachelor's degree from the City University and her 
M.D. from Albert Einstein College of Medicine.
    Our second witness is Max Brooks, a New York Times 
bestselling author and actor and a screenwriter. He is known 
for his popular books, the Zombie Survival Guide and World War 
Z as well as for his roles in television shows such as Rosanne, 
Pacific Blue and Seventh Heaven. He also worked as a member of 
the writing team of Saturday Night Live. Mr. Brooks received 
his bachelor's degree from American University.
    Our next witness is Stacy Antie, a parent advocate for 
educational interventions for dyslexia and other language-based 
learning disabilities within our schools. Ms. Antie is the 
mother of a 9-year-old boy who was diagnosed with dyslexia and 
who currently attends Louisiana Key Academy. She has been 
spreading her son's story for the past year to help other 
families in similar situations. She is a lifelong Louisiana 
native.
    Our next witness is Dr. Peter Eden, the President of 
Landmark College. Previously, Dr. Eden served as the Dean of 
Arts and Sciences and Professor of Biotechnology at Endicott 
College, Associate Professor and Chair of the Science 
Department at Marywood University and Research Fellow at the 
Jackson Laboratory. He has also worked as a molecular biologist 
and Research Project Director at Biomeasure Inc. Dr. Eden has 
published more than 20 scientific articles and has received 
funding for his research from the National Institutes of Health 
and the National Science Foundation. Dr. Eden received his 
bachelor's degree from the University of Massachusetts and his 
Ph.D. from the University of New Hampshire.
    Our final witness, Dr. Guinevere Eden, is an Associate 
Professor in the Department of Pediatrics and the Department of 
Psychology at Georgetown University and an Adjunct in the 
Department of Pediatrics at George Washington University. She 
also serves as an advisor of Great Schools Inc. and directs the 
Center for the Study of Learning. Dr. Eden previously served as 
President of the Board of the International Dyslexia 
Association where she now serves as the Director, and on the 
editorial boards of the scientific journals Annals of Dyslexia 
and Human Brain Mapping. Dr. Eden received her bachelor's 
degree from University College London and her Ph.D. from Oxford 
University.
    We welcome you all, and Dr. Shaywitz, if you will lead us 
off?

                TESTIMONY OF DR. SALLY SHAYWITZ,

                 AUDREY G. RATNER PROFESSOR IN

                     LEARNING DEVELOPMENT,

      YALE UNIVERSITY SCHOOL OF MEDICINE AND CO-DIRECTOR,

            YALE CENTER FOR DYSLEXIA AND CREATIVITY,

                        YALE UNIVERSITY

    Dr. Shaywitz. Good morning, Chairman Smith, Ranking Member 
Johnson and other Committee Members. Thank you for the 
opportunity to speak with you about the science of dyslexia and 
share with you the tremendous scientific progress that has been 
made in dyslexia.
    In dyslexia, there is an abundance of high-quality 
scientific knowledges so that we do not have a knowledge gap 
but an action gap. It is our hope hearing the depth and breadth 
of the scientific knowledge of dyslexia will alert policymakers 
to act and to act with a sense of urgency.
    Resolution 456 submitted by Representative Bill Cassidy of 
Louisiana and Representative Brownley provides an up-to-date 
universal definition of dyslexia, incorporating scientific 
advances and understanding of dyslexia, especially its 
unexpected nature, and represents a landmark in aligning 
science and education.
    Dyslexia represents 80 to 90 percent of all learning 
disabilities and differs markedly from all others in that 
dyslexia is very specific and scientifically validated. We know 
its prevalence, cognitive and neurobiologic origins, symptoms 
and effective interventions. Learning disabilities is a general 
term, referring to a range of difficulties, most of which have 
not yet been delineated or scientifically validated.
    Data from sample surveys indicate dyslexia is very common, 
affecting, as you have heard, one out of five. Yes, you heard 
correctly. It is not the prevalence often quoted by schools. 
Why? The why is the reason we are here today. Schools far too 
often fail to acknowledge, much less identify, students who are 
dyslexic. Initial descriptions of dyslexia as an unexpected 
difficulty in reading are empirically validated as demonstrated 
in this slide. Slide, please.
    In typical readers, IQ and reading track together over 
time. As you can see on the left, in typical readers' IQ and 
reading go together. In contrast, in dyslexic readers, reading 
and intelligence are not linked so a child can have a very high 
IQ, and unexpectedly read at a much lower level. Dyslexia 
reflects a difficulty within the language system, more 
specifically, the phonologic component of language. It is not 
seeing words backwards.
    Dyslexia is a paradox. The same slow reader is often a very 
fast and able thinker, giving rise to our conceptual model of 
dyslexia as a weakness in getting to the sounds of spoken words 
surrounded by a sea of strengths in higher-level thinking 
processes such as reasoning and problem-solving. Reflecting 
this paradox are many eminent dyslexics, as you have heard, 
Charles Schwab, David Boies and Dr. Toby Cosgrove, who is CEO 
of the Cleveland Clinic and a cardiac surgeon.
    On the other side of the coin, though, are many who are not 
identified and do not receive evidence-based instruction, 
struggle to read and come to see themselves as a failure. 
Converging evidence from our own and other laboratories has 
identified a neural signature for dyslexia. Slide, please.
    [Slide.]
    That is an inefficient functioning of those posterior left 
hemisphere language and reading systems.
    Recent data--slide--from our laboratory indicate that the 
gap between typical and dyslexic readers is already present by 
first grade, and persists, a very clear message: we have to get 
to these children very early and not wait.
    Yes, dyslexic children can learn to read and must be taught 
to read. It is imperative that teachers and parents learn about 
the powerful science of dyslexia, know how to identify dyslexia 
early on, and provide evidence-based methods to teach dyslexic 
children to read. We must not give up on teaching reading and 
limit a child's future options. Education must and can be 
aligned with science.
    We must ensure that scientific knowledge is translated into 
policy and practice and that ignorance and injustice do not 
prevail. We know better and we must act better.
    I cannot look into the face of one more child who has lost 
faith in himself and the world. I cannot look into the face of 
a child's father who is desperately trying to hold back tears. 
I cannot hear once again about how a school told a mother, we 
do not believe in dyslexia.
    As shown in this next slide, an iceberg is 90 percent 
underwater with only ten percent visible. Similarly, in 
dyslexia, we hear about the ten percent like Max Brooks who 
have made it. Let us not give up on the invisible 90 percent 
still underwater asking, indeed begging, to be helped.
    I am optimistic, though. Once this Committee is aware of 
the strong science of dyslexia, educators will want to align 
their practices and policies with 21st century science. It is 
good for the children, for their families and for our Nation.
    Thank you.
    [The prepared statement of Dr. Shaywitz follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Shaywitz, and Mr. Brooks.

                  TESTIMONY OF MR. MAX BROOKS,

                    AUTHOR AND SCREENWRITER

    Mr. Brooks. Thank you, Mr. Chairman.
    I was asked here to talk about what it was like being 
dyslexic. I will say that for me, first of all, let me just say 
that I didn't prepare a statement because the last time I tried 
to read aloud from a prepared statement, my whole fifth-grade 
class laughed at me. Thank you.
    So I am just going to be brief and speak from the heart. 
Dr. Shaywitz asked me to come here to talk about what it was 
like, and I will define it in one phrase that my teacher used 
to say to me in elementary school, which is ``You can do it. 
You just don't want to do it.''
    Now, I grew up on the west side of L.A. in a very expensive 
private school. I had the best that the system could give me, 
and it wasn't enough, and I think the most important thing to 
discuss here is the psychological and emotional damage dyslexia 
causes. More than the learning disability is the blow to your 
self-esteem because once you are in that hole, it can take you 
the rest of your life to climb out. There is nothing more 
frustrating for a child to work twice as hard as the other kids 
but to do half as well. Eventually kids start to buy into the 
narrative, as I said, ``Well, maybe I am just dumb. I am 
clearly not lazy. I am not undisciplined.'' And when my teacher 
would say well, I am just going to whip you into shape, I would 
think well, yeah, that is exactly what I need is a whipping.
    I was very lucky because I had one of the best moms ever, 
and I don't know how she knew about dyslexia in the late 1970s, 
early 1980s. She took that secret to her grave but somehow she 
knew about it. She made sure that I was diagnosed, tested and 
then she met with all my teachers and made them understand that 
me being the class clown and the troublemaker was my way of 
compensating for these horrible feelings of low self-worth. So 
she set in place therapies that helped me like taking an 
untimed test. An untimed test reduces the amount of anxiety 
that it gives a kid, because that is the problem with dyslexic 
kids. So much of it isn't the learning disability, it is the 
anxiety that it causes, which shuts down everything. So untimed 
test was important. Audiobooks--back in the day there were not 
many audiobooks so my mother took my whole school reading list 
every year to the Braille Institute for the Blind, had them 
read onto audiobooks so that way I listened to my school 
curriculum. Otherwise I wouldn't have passed.
    Most importantly, she made sure that my teachers knew that 
I was trying and I was doing my best, and this was not some 
sort of voluntary screwing around. That helped me get through. 
And as a result, not only have I had success as an author, 
dyslexia has shown me to be a gift because I can't simply 
memorize facts and regurgitate them. I have to understand them. 
Because I have to understand them and understand the broader 
context in which they exist, it has made me a big-picture 
outside-the-box thinker, and that manner of thinker has gotten 
me invited to speak at places like the Naval War College and 
West Point, hurricane rehearsal of concept drills, the U.S. 
Army's Vibrant Response, and a few strategic studies groups 
that I don't think I am allowed to talk about here.
    It is a gift, and we can turn so many of these kids around 
because that is the problem is that they start to believe well, 
if the system has no value with me, I have no value for the 
system, I am going to drop out, and they fill our streets and 
they fill our jails and they suck off the system for the rest 
of their lives because they don't feel they can contribute, and 
all we need to do is identify it and recognize it at the early 
level and we can turn these kids around, as we have all 
discussed. These are the creative thinkers. These are the 
engines of what we used to call Yankee ingenuity. How many 
Einsteins do we have sitting in our schools right now staring 
out the window because they think they have nothing to 
contribute? That is all it takes.
    And look, I understand as a Member of Congress you have 
people coming to you every day saying listen, we have a problem 
and it will cost you $500 million a day. This can be solved, 
and it is one of the few problems you face as a Member of 
Congress that can be solved easily and relatively quickly.
    Thank you.
    [The prepared statement of Mr. Brooks follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Mr. Brooks. Ms. Antie.

                 TESTIMONY OF MS. STACY ANTIE,

                      PARENT AND ADVOCATE

    Ms. Antie. My story is simple. I am not a medical doctor or 
a Ph.D. I am just a mom that is here to try to explain the 
daily challenges that my 9-year-old child faces, who struggles 
with dyslexia, with the hope of bringing awareness for every 
child that has it, whether they are diagnosed or undiagnosed.
    Dyslexia often prohibits my son from having the ability to 
match sounds with the alphabet. This impacts his reading, his 
spelling and his speaking. It is not a sign of poor 
intelligence or laziness. In fact, my son is exceptionally 
bright and very intuitive. He is creative. He is very 
tenderhearted and loving.
    In kindergarten, I noticed that something was a little bit 
different with my son. He had a harder time with things than 
other children. He was not able to rhyme or even understand the 
concept of rhyming. This continued throughout kindergarten. I 
brought him to a reading clinic over the summer between 
kindergarten and first grade. All the teachers told me the same 
thing: he is a boy, he will get it, boys tend to get it a 
slower but he will have it by Christmas. Christmas came, 
Christmas went; he still didn't understand the concepts.
    He started first grade, and first grade is where our real 
troubles started. He became very anxious about going to school. 
He didn't want to read out loud in front of all the other 
children. He became very frustrated. The 20 minutes of homework 
that he would have had would turn into two to three hours every 
night. He would have to read where it would normally take a few 
seconds, would take him five to six minutes because he had to 
sound out every letter of every word and then try to blend it 
together, which he couldn't hear the sounds to blend them. From 
there, it turned into tears for both he and I because we sat 
there for hours working on his homework until he went to bed.
    In mid-October of his first-grade year, his teacher said, 
``I am seeing some red flags, you might want to have him tested 
for dyslexia,'' which I did. I struggled with my insurance 
company to have him tested, and they told me that he couldn't 
be tested until June, which was eight months away. The longer 
that I waited for him to be tested, the further behind he was 
going to get, so I decided to pay out of pocket and have him 
tested, and he was given the diagnosis in December of 2011 that 
he was dyslexic and he had developmental coordination disorder.
    He started speech therapy and occupational therapy a few 
times a week. He also got tutoring. He had already failed first 
grade, because if you fail reading for the first grade, you 
fail the entire year, so we knew he had failed by the third 
semester of first grade. He would come home every day and ask 
me, Mom, why am I so stupid and no one else is? And as a 
parent, how do you look into your 7-year-old child's eyes and 
reassure him that he isn't stupid, he just thinks a little bit 
differently than other people. He would never read out loud, 
and his self-esteem plummeted. He became very introverted and 
he never wanted to do anything outside of the house.
    The next school year in 2012, he started first grade again. 
He had a B average, because he had already had all the material 
previously. He still struggled a little bit in reading, and he 
went to a reading interventionist every single day for 30 
minutes a day in addition to all the therapy we were having. At 
the end of the school, there wasn't a huge improvement in his 
reading abilities, and I thought, why am I paying all these 
thousands of dollars in tuition when the school really can't 
help my child. It doesn't have the resources to help him. They 
tried to compensate for his needs but they weren't able to 
correct anything. He didn't fit into the ``normal'' mold that 
all the other children did, and at that time they--I am sorry--
they didn't want to change their mold for one child.
    I found out about a new charter school at the end of that 
year, Louisiana Key Academy. I applied for him, and he was 
immediately accepted since he already had the diagnosis of 
dyslexia, and for the first time he was excited about going to 
school because he was along with other children who felt the 
exact same way he did. He was able to understand that they have 
trouble reading just like we did. His self-esteem picked up a 
little bit each day. He felt like he belonged. He went from a 
classroom size of 32 to a classroom size of 16. The classroom 
size broke to six at reading, which is instrumental in him 
learning because he was able to get individual attention along 
with learning from a small group.
    Louisiana Key uses a systematic evidence based curriculum 
called Neuhaus, and this teaches them how letters work to form 
words, and he started to hold his little head a little bit 
higher and stopped referring to himself as stupid.
    The pivotal point in this journey with me happened in 
January of this year. I was helping my son, his brother, who is 
7, and Coleman, who is dyslexic, came up to me and he said, 
``Thomas, you know what to do. It is a CVC word. That means you 
slice the E and you make the A a macron,'' and I was looking 
like he was speaking Chinese to me because I understood nothing 
about it, and he said, ``Mom, let me break that down for you. 
You just make it long,'' and I said okay, so I pointed to 
another word and he immediately showed me how to do that one, 
and I told him how proud I was of him and he said, ``I 
understand how to decode words now. It just makes sense.''
    At the end of last school year they had to do a project 
where they had to read a presentation. They had to become a 
famous American. He chose Steve Jobs because my son is great at 
videogames and Steve Jobs makes the absolute best thing in the 
world for my son to play videogames on, but as we learned, he 
was dyslexic also. We used that as a tool to help all the 
children learn that if they work through this and they work 
together and they work hard and they stay determined, they can 
do anything. And as he went for his presentation, I held my 
breath, and he stood before his class and he read in front of 
me and all the parents and all the children, and he has never 
done that ever.
    So I thank you for this opportunity just to explain all the 
challenges that these children really do go through, and as a 
family, everybody is affected, not just the child.
    [The prepared statement of Ms. Antie follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Ms. Antie. Dr. Eden.

                  TESTIMONY OF DR. PETER EDEN,

                  PRESIDENT, LANDMARK COLLEGE

    Dr. Peter Eden. Thank you, Mr. Chairman.
    Students with dyslexia are certainly disadvantaged. I want 
to focus on students at the college-university level.
    Hundreds of thousands of students with dyslexia are in 
colleges and universities right now, and there are many, many 
more with other learning disabilities and learning difficulties 
such as ADD or autism spectrum disorder. Most students with 
dyslexia cluster in two-year colleges, and while the majority 
received accommodations in high school, very, very few receive 
accommodations in college. When they do, it is typically 
extended time for a test.
    One rarely finds comprehensive support models and programs 
in higher education, let alone a dedicated program like 
Landmark College, which focuses only on students with LD such 
as dyslexia. This is only going to get more challenging when 
one considers the reality of online teaching and learning, 
which is here to stay. The standard modalities we use in 
education today, in online education, will only exacerbate 
these challenges for students with LD such as dyslexia. We need 
more adaptive learning elements. We need more quality assurance 
when teaching and learning in an online milieu.
    In terms of some innovative educational practices and 
efforts, the principle of universal design, UD, or UDL, gives 
us great promise and hope, and UD is a principle where one 
engineers the learning environment to anticipate the 
neurodiversity in the classroom, to anticipate the 
heterogeneity of learners, of students and learning profiles. 
UD ensures that there are multiple means of presentation, 
student responses and engagement, and UD can be applied in 
conventional or in online settings.
    Another innovative educational practice involves mobile 
technologies. Already today, I have heard people mention that 
students are using iPads and they certainly have smartphones. 
Greater than 90 percent of college students own a smartphone. A 
great number own an iPad, and when do own an iPad, greater than 
90 percent of these college students use the iPad for learning.
    We need to meet these college students where they exist, 
which is online and using a mobile device and develop assistive 
integrated technologies so we have a more ubiquitous ecosystem 
for them, to specialized rooms. We can remove the stigma. We 
need to focus on elements which use native software in our 
smartphones and iPads for teaching and learning and it will 
always be available to our students.
    Also, cognitive training is another innovative educational 
practice where we explore, for example, patterns of learning 
through markers, cognitive, physiological and other markers, 
via videogame activities. This is one way to leverage the fact 
that thousands, millions of learners play videogames. We can 
assess big data, get our hands on exhaust data, learn how they 
learn within a videogame and seek adaptive and customizable 
learning activities.
    In terms of Landmark College, we offer 2- and four-year 
degree programs including those in STEM. We serve only students 
with some learning disability or learning difficulty. This is a 
dedicated model. We have 500 students. Every student has some 
learning challenge. We use UD principles and integrated 
technologies. We provide careful placement and curriculum 
tracks for students with dyslexia. We have a hidden curriculum 
of support with our resources. Our retention rates are high. 
The ultimate B.A./B.S. graduation rate for Landmark College 
students is 70 percent, which is higher than the national 
average for all students, let alone students with LD. We 
juxtapose research and innovation with teaching and learning.
    Now, at Landmark College we have the Landmark College 
Institute for Research and Training, LCIRT. LCIRT has received 
recent funding through LDFA for iPad app development between 
students and faculty, and also two recent NSF awards. I will 
try to summarize those now. One, NSF REAL, Research in 
Education and Learning. This is where we will investigate the 
efficacy of instructor presence in synchronous elements for 
online learning in STEM content for students with LD including 
dyslexia whether or not instructor presence and response 
immediacy pays off with student outcomes. Also, another grant 
recently received by the college is NSF data-intensive research 
to improve STEM teaching and learning, collaboration with MIT 
and TERC, and this is Revealing the Invisible grant funding. We 
are using the game vehicle to study engagement, eye tracking of 
students playing videogames, attention, memory, and implicit 
understanding of Newtonian physics in this effort. Again, we 
could capture huge amounts of data given the number of students 
involved in gaming in understanding how they learn in that 
environment. It also provides for educational data mining and 
an understanding of machine learning.
    In summary, LD such as dyslexia provides a true barrier to 
learning, education and employment. There is a huge untapped 
population of potential workers, for example, in the STEM 
field. Innovative educational practices that are scalable that 
we can disseminate are needed, particularly with the online 
education realities. We use technology to discover better 
teaching and learning platforms and to understand neurodiverse 
students and to provide ubiquitous tools for success in college 
and in careers. Research and support is increasingly focused in 
this area. We are grateful, but much, much more is needed, and 
remember: advances in this area for students with dyslexia and 
LD, they will provide improvements that are good for all 
learners, for every learner, and that is why this is so 
important.
    Thank you.
    [The prepared statement of Dr. Eden follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Eden. We will go to the next 
Dr. Eden, though no relation.

                TESTIMONY OF DR. GUINEVERE EDEN,

        DIRECTOR, CENTER FOR THE STUDY OF LEARNING (CSL)

            AND PROFESSOR, DEPARTMENT OF PEDIATRICS,

              GEORGETOWN UNIVERSITY MEDICAL CENTER

    Dr. Guinevere Eden. Thank you, Chairman Smith, for holding 
this hearing and for the invitation to speak to you today about 
the brain-based scientific understanding of dyslexia.
    Magnetic resonance imaging, as you have already heard, has 
provided a way by which researchers can study the brain and 
anatomy and function noninvasively, thereby permitting the 
study of children. Since my colleagues and I first implemented 
functional magnetic resonance imaging to study dyslexia in 
1996, the understanding of dyslexia has advanced significantly.
    Reading stands out in cognitive neuroscience. It is a 
uniquely human skill and cannot be ecologically simulated in 
animal models. At Georgetown University, we use functional MRI 
to study the reading brain in action, the developmental 
trajectory of reading, the difference in people with dyslexia. 
We have examined skills other than reading noted to be affected 
in people with dyslexia to evaluate which underlying brain 
differences are causal to the reading problems and which are 
not. We have begun to investigate males and females separately 
since our findings in girls and women suggest that the brain 
mechanisms for dyslexia may in part be sex-specific. We have 
examined the impact of intensive reading intervention and 
learned that adults with dyslexia not only make gains in 
reading but exhibit plasticity as demonstrated by increased 
brain activity. Intervention also results in growth in brain 
tissue. As such, reading gains in dyslexia are brought about by 
complex physiological and anatomical changes.
    The main challenge for our research is determining the 
etiology of these brain-based findings, and researchers across 
the country are tackling this very question. Molecular 
mechanisms have been probed by examining MRI scans in children 
with dyslexia for the chemicals that support communication 
amongst brain cells. Also, studies have been conducted in 
people who are carriers of dyslexia-associated genes to better 
understand the gene-brain relationship. Here, animal models 
have been very useful. Mice specifically bred to carry 
dyslexia-associated genes are studied to determine how these 
genes operate at the cellular level, thereby filling the void 
where human research is limited. Together these NIH-supported 
studies have improved our understanding and raised awareness 
for the complexity of dyslexia.
    How can these findings be translated? We now know that 
learning to read, as my first-grade daughter is doing at this 
very moment, eventually leads to substantial changes in brain 
anatomy and brain function. Will brain imaging allow us to 
identify dyslexia in pre-readers or forecast who might benefit 
from intervention, and of what kind? Neuroscientists are 
working on these possibilities, and imaging data are proving 
indicative of future reading outcome in dyslexia.
    Factors constraining these efforts are mostly technical in 
nature and could be surmounted by technological advances such 
as those envisioned in the President's BRAIN Initiative, 
potentially allowing for observations at the individual as 
opposed to the group level, and in younger children.
    A continuing barrier in the field is the distance between 
academic research and educational practices. Researchers 
publish in specialty journals, which are often inaccessible to 
those who operate as educators in the field. Teachers may 
therefore not be implementing the approaches that have been 
proven to be successful by rigorous research studies. 
Conversely, researchers are at risk of pursuing theories that 
are not relevant to real classroom settings.
    Some agencies have addressed this problem. The National 
Science Foundation Science of Learning Centers, for example, 
like the one here at Gallaudet University allow for an 
environment to integrate knowledge across multiple disciplines 
and connect research with educational challenges. These 
conduits need to be increased if we are to move--have more than 
a dialog spanning the gamut from neuroscience to classroom 
activities. More training opportunities that expand the 
knowledge base in each field with respect to the other and 
funding opportunities that promote collaboration are needed.
    In the meantime, others are stepping up to fill the gap. 
For example, the International Dyslexia Association, the IDA, 
has provided guidelines for the training of teachers of 
students with dyslexia based on current research. Further, the 
IDA is providing accreditation to those universities engaged in 
teacher training that abide by these high standards, allowing 
for those teachers to have the necessary skills to identify and 
teach children with dyslexia effectively. This is in addition 
to the longstanding efforts by the IDA to bring researchers, 
practitioners and parents together to provide and share 
information and resources, and in ways that are relevant and 
accessible to each stakeholder. The IDA and other nonprofit 
organizations raise awareness and distribute knowledge. This 
can also protect parents and educators from seemingly promising 
commercial programs for dyslexia that in reality provide little 
or no benefit.
    Overall, the science of dyslexia has made significant 
advances. Challenges have arisen, which can be met by Federal 
support for science and education intertwined, allowing changes 
in academic and educational institutions that will facilitate 
jointly tackling the collective complexity of dyslexia and 
harness the knowledge of teachers and science of learning to 
the benefit of people with dyslexia.
    Thank you.
    [The prepared statement of Dr. Eden follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Eden, and I will recognize 
myself for questions, and each Member is limited to five 
minutes, so I am going to ask brief questions, and Dr. 
Shaywitz, let me address the first one to you.
    You noted, and we are aware, that various progress has been 
made in our understanding of dyslexia, but what would be some 
next steps that we need to take to better that understanding? 
Could you put your microphone on there?
    Dr. Shaywitz. There are a number of next steps, but my 
emphasis is that we know so much, and I worry that people will 
say well, wait until we find out more and more. Children have 
one life to live. We have to make sure that we address their 
needs now; we have more than enough knowledge to make changes. 
We have heard from Max Brooks and Stacy Antie about what 
dyslexia does to a child and to a family, and how can we let 
that continue to go on when we have the knowledge to make a 
difference?
    Chairman Smith. So use the knowledge we have better than we 
do?
    Dr. Shaywitz. Use it, implement it, have teachers and 
parents who are aware of the signs of dyslexia and what are 
evidence-based programs that will help the children. They can't 
hold their breaths waiting--we always need more knowledge but 
dyslexia is in the unique position, we have so much knowledge. 
A parent goes to a school and says, ``we don't believe in 
dyslexia.'' That is unacceptable.
    Chairman Smith. Okay. Thank you, Dr. Shaywitz.
    Dr. Shaywitz. You are welcome.
    Chairman Smith. Mr. Brooks, you ought to be a talk-show 
host as long as you didn't mention Congress. Don't answer that.
    The question is this. How has dyslexia helped you in your 
career?
    Mr. Brooks. Well, I think it has helped me mentally and 
emotionally. I think, as I said before, it helped me mentally 
because I couldn't simply regurgitate facts. I had to make sure 
that I understood the facts, and the best way to understand 
facts is to understand the bigger picture, and I think it is 
that big-picture thinking that has helped me.
    But also emotionally, it has made me resilient. You know, I 
think as we all know, one of the biggest challenges to any 
human being is to get out of your comfort zone. Well, anybody 
with dyslexia knows you don't have a comfort zone. You are 
always struggling, so it makes you comfortable with struggling. 
So in that way, it has made me very comfortable with new 
challenges.
    Chairman Smith. Okay. Good. Thank you, Mr. Brooks.
    Ms. Antie, what should we do in our public schools to help 
dyslexic kids?
    Ms. Antie. The way that my son has been taught through the 
systemic evidence-based curriculum has made the difference in 
the world to him. It has taught him actually how to decode 
words, and I think that is beneficial to everybody, because as 
he taught me, I was able as adult even to say that really does 
make sense. So I think every child can benefit from having 
that, and smaller schools--smaller classroom sizes. I know that 
is not always the best way because, you know, we have so many 
children in school but 32 down to 16 makes a tremendous 
difference in the classroom.
    Chairman Smith. Okay. Thank you, Ms. Antie.
    Dr. Eden, I really don't have a question for you because 
you answered my question. Thank you for your suggestions as to 
what we should do on the college level to help dyslexic 
students. I appreciate that very much.
    Dr. Eden, what should we do to help make reading a priority 
when we are dealing with dyslexia?
    Dr. Guinevere Eden. Well, I think we need to recognize the 
importance of learning and to recognize that the gateway to 
learning is learning to read, and so in the absence of reading, 
it is not just learning to read directly but it is what you 
learn once you are able to read that is so important. It has to 
be a priority. It seems so obvious. We are spending so much 
time, we understand so much about the science of learning, we 
understand so much about dyslexia, we understand how you can 
teach students with dyslexia, but for some reason we are just 
not able to get the information out there and bring it to the 
teachers who are performing this very important task of 
teaching our children how to learn to read.
    Chairman Smith. Okay. Thank you, Dr. Eden.
    That concludes my questions, and the gentlewoman from 
Texas, Ms. Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much.
    Dr. Peter Eden, in your testimony you mentioned how 
Landmark College recently received two NSF grants to address 
the learning needs of students with learning disabilities like 
dyslexia. It has been a while since we have had the opportunity 
to hear about the educational research that NSF is funding, and 
I am excited that we have the opportunity today. Would you 
please elaborate on those research grants that Landmark College 
has received and how that research has led to any type of 
results for the individuals?
    Dr. Peter Eden. Absolutely. These particular grant 
proposals were awarded just within the past few weeks, so we 
don't have the data yet. However, it is very, very exciting to 
embark on. Both are at least three years in duration. The first 
NSF award, the REAL, Research in Education and Learning, it 
focuses on--in an online learning environment with the topic of 
statistics in the STEM field. Students with LD including 
dyslexia, will they benefit from instructor presence in a 
synchronous, not an asynchronous fashion--synchronous means in 
real time right there--and whether or not that makes a 
measureable difference in their understanding of the content 
and the outcomes in this class if in the online environment 
there is an instructor present to help them as they move 
through the course, and this will be invaluable because you see 
the proliferation of online courses for all learners in 
understanding the efficacy of online STEM courses, whether or 
not we have a synchronous element with response immediacy and 
an instructor right there to help them with the content or not, 
and that will be determined through this grant proposal.
    The other is the proposal in collaboration with MIT and 
TERC, and this is the effort to leverage the fact that we have 
so many college students, and younger, of course, gaming, 
playing videogames, and hopefully understanding something about 
their memory and their attention and even using eye tracking as 
they understand in this case Newtonian physics built into this 
science videogame, and when I say big data and exhaust data, 
that means we could possibly if we have enough remote webcam 
technology in the future see what thousands, hundreds of 
thousands perhaps students experiencing these videogames, 
playing these games, how they learn, how they understand the 
principles within the videogame and harnessing that big data. 
So this platform of gaming provides a tremendous window into 
how students may learn, and we are trying to understand that 
better through that NSF grant proposal.
    Ms. Johnson. Thank you very much.
    And this question probably will be my final one because of 
time. To any of the panel members, we have done some research 
but it seems to me, and of course the type that you are doing, 
I think is going to be extremely good to have the outcomes, are 
we getting the benefit of it with people who are working 
directly and how can we better enhance that? I ask that 
question because many of you have mentioned going through a 
struggle to find some answers. Then I hear that many of the 
answers sometimes can be found through technology rather than 
making a student read. I just want to get some feedback of what 
you think needs to be done to better get that information out.
    Mr. Brooks. I can tell you one thing that we can do right 
now, which is make mandatory dyslexia recognition training part 
of any teacher's certificate because, look, we make our 
policemen take mandatory racial sensitivity training. Why not 
make our teachers take mandatory dyslexic recognition training 
so maybe they can recognize that the class clown or the 
troublemaker or the kid who stares out the window is actually 
compensating for dyslexia. We have all these new solutions and 
all these solutions that keep coming but none of that is going 
to help if we don't get the kids to the solutions in the first 
place, so that is the first step.
    Ms. Johnson. Thank you. My time is expired, but anybody 
else can comment.
    Chairman Smith. Normally we don't encourage audience 
participation, but today it is appreciated.
    The gentleman from Indiana, Dr. Bucshon, is recognized.
    Mr. Bucshon. Thank you, Mr. Chairman.
    My daughter does not have dyslexia but she did have a 
learning disability. We started to notice really in 
kindergarten that she was not able to read as well as her older 
brothers, and in first grade she started to get behind, way 
behind with a different type of learning disability. And to 
your point, Mr. Brooks, this became a social problem for my 
daughter, and she came to her parents wondering if she was 
dumb. So this is a big deal, and my point is this: Parents have 
to advocate early. The system does want to help but I always 
think all the time if she didn't have parents there advocating 
right then--we got her tested. We found out what her problem 
was. She got specific direction. Again, she does not have 
dyslexia but she had a short-term memory thing. It is like tell 
her seven items in a row. Most kids her age could regurgitate 
five or six. She could only remember two. I don't know what 
that is called but basically that was her problem, and she has 
come around. That is ten years ago now. She is a straight A 
student in high school. So thank you for your testimony about 
the social aspects of this type of problem. It is real. She 
had--and it took her really years to recover the self-esteem 
but now she has, so that is very important.
    My question I think has already been answered but I will 
ask Dr. Shaywitz. The National Center for Learning Disabilities 
believes that all parents and professionals who work with young 
children should be informed the early signs of dyslexia. I 
guess maybe you can focus on what families and doctors can 
identify and should be aware of that early signs that maybe 
more people would recognize that they need to actually get 
their child or maybe their patient or their student further 
evaluation rather than just saying well, they will improve, 
which is what we were kind of told--well, it is early, she is 
only 6, you know, and we are like, no, no, no. All the other 6-
year-olds are reading at a much higher level and her brothers 
did and we know it. So what should we be aware of, the early 
warning signs? What can we do?
    Dr. Shaywitz. That is a good question, and I am so glad you 
asked it. Children can and must be identified, and the parents 
are the ones who know the child best. Sometimes schools don't 
listen to them but parents do know the child best. Dyslexia is 
a language-based disability. So you can start right away. There 
may be a delay in talking. As children grow up and go into 
toddlerhood, and I think Ms. Antie mentioned this, one of the 
first things--dyslexia results in difficulty getting to the 
individual sounds of spoken words, so children have to be able 
to separate out the individual sounds into each individual 
sound that represents the letter. One of the first times the 
child has to do that is when they have to rhyme because how do 
you know cat-mat rhyme. You pull it apart and you look at the 
``A.'' So children who have difficulties rhyming, who have 
difficulty learning the sounds and the letters, that is 
usually--so that is something that parents can watch for but 
also pediatricians.
    I am a pediatrician, and I must say, pediatricians need to 
know more. They are really the people who are often the ones 
that follow the child, know the child, but they don't know 
enough about dyslexia, and we at the Yale Center are taking 
actions to educate pediatricians, to involve them more, and we 
have now actually developed some instruments that can be used 
for screening at kindergarten and at first grade.
    So I have just begun what are the symptoms. I have them in 
my book, Overcoming Dyslexia, but they should be made part of 
teacher training. Every teacher shouldn't deny when a parent is 
concerned but should actually know what dyslexia is, as Max 
said, knowing what it is about and be able to identify that 
child and have the support at the school to be able to do that, 
and that doesn't occur.
    I just want to add also that very often--and we have been 
talking about Charles Schwab and others--dyslexia is an 
unexpected difficulty, as I showed on the slides. You can have 
a high IQ and read much below that, and very often, schools, if 
you are bright, they say oh, well, you know, as Max was told, 
you are not trying hard enough or you have to work harder. So 
children and young adults who have high levels of 
intelligence--and you can test for it and it must be tested 
for--shouldn't be overlooked as well.
    Mr. Bucshon. Thank you.
    Dr. Shaywitz. Thank you for that question.
    Mr. Bucshon. You are welcome. And I just want to say again, 
it is not, in my opinion--I have got four kids. Anyone who has 
children knows, we could tell when she was younger, and we were 
advocates because we had experience. I would implore everyone 
to, as a parent, to be an advocate, and the last thing, and 
then I will yield back, Mr. Chairman, is that anyone who has 
kids also knows that when you are in kindergarten or first 
grade, the social status starts to develop of where you fit 
amongst your peers. It is very, very early, it is much earlier 
than that even. It is in pre--so to wait can do a lot of 
damage.
    Dr. Shaywitz. I just want to----
    Mr. Bucshon. I yield----
    Dr. Shaywitz. --add that data hot off the presses shows 
that the gap is there by first grade, and it is just not 
acceptable to wait and watch. That is waiting for failure. To 
reinforce what you said, children know who is in the sparrows 
reading group and who is in the eagles reading group.
    Mr. Bucshon. They do.
    Dr. Shaywitz. And you can't fool them.
    Mr. Bucshon. You can't.
    Dr. Shaywitz. Early identification should be mandatory. 
Teachers have to look for the signs. Children need to be 
evaluated and they can be and then receive the evidence-based 
instruction that they require. You can turn an unhappy child 
into a happier one but if you do it early, you don't have to go 
through that unhappiness.
    Mr. Bucshon. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Bucshon. The gentlewoman 
from Oregon, Ms. Bonamici, is recognized for questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you so much to all of our witnesses for being here today. It 
has been a very informative hearing. I appreciate it.
    First I want to start by telling Ms. Antie, I had to go to 
a meeting during your testimony but I have read your testimony, 
and you said you were just a mom. That is a very important job, 
so thank you so much for bringing your story.
    I serve not only on the Science, Space, and Technology 
Committee but I also serve on the Education and Workforce 
Committee. I don't take off my education hat when I come here. 
I also don't take off my science hat when I go there. So I am 
looking at this from both perspectives, and I just want to say, 
Mr. Brooks, I have many times questioned whether our national 
overemphasis on standardized tests is inhibiting creativity, 
and you certainly answered that question for me.
    I have had a lot of meetings in my wonderful district in 
Oregon with some of our decoding dyslexia Oregon parents, and 
they along with all of you understand that there have been so 
many advancements in research, in technology. Just look at the 
Intel Reader, for example. There have been a lot of things that 
have been done. We find here in the capital that oftentimes the 
technology is ahead of the policy, and so I wonder if you 
could--I will start with Dr. Shaywitz. If you could talk a 
little bit, you mentioned evidence-based programs, so 
important. So I would like you to focus on what are some of the 
evidence-based programs and then also I want to have time to 
talk about the early indicators, and Mr. Brooks, you got great 
applause to your suggestion that there be the mandatory 
recognition training for teacher certification but there are a 
lot of teachers who are already teaching. We need to get to 
them as well as to the new teachers. So Dr. Shaywitz, could you 
please talk about what are some of the evidence-based practices 
that we should be promoting?
    Dr. Shaywitz. Thank you. I am happy to do that, but I think 
first, it is important to differentiate evidence-based from 
research-based. We often hear people saying this program is 
research-based. Evidence-based means that there is proven 
efficacy. Research-based simply indicates there are theoretical 
suggestions but does not provide evidence that the program is 
actually effective. Evidence-based programs are akin to the 
level of evidence the FDA requires before medication can be 
approved for use. Many, many theoretical research-based 
approaches when tested in the field prove to be ineffective. 
Our children's reading is too important to be left to 
theoretical but unproven practices and methods. We must replace 
anecdotal and common but not evidence-based practices, with 
those that are proven, that is, they are evidence-based. That 
goes for programs to teach children to read, for programs for 
professional development, and programs that colleges of 
education use when they are teaching future teachers. There are 
a number of evidence-based programs and they have in common 
that they reflect the knowledge we know about reading, that 
they go back to teaching children about spoken words, about 
pulling the words apart, attaching them to the letters.
    In 1998, Congress became very concerned that there seemed 
to be an epidemic of reading problems and mandated that a 
National Reading Panel be constituted to investigate what 
methods and approaches have evidence. I was honored to serve on 
the panel. The Report of the National Reading Panel, which 
indicated that the components that are necessary and they 
include not only phonetic awareness, phonics, fluency but also 
vocabulary fluency and comprehension.
    Ms. Bonamici. That is great, and I am going to have time to 
talk about accommodations a bit, but obviously we have heard 
today and we know that not every child who has dyslexia has 
involved parents who can dedicate the time and have the ability 
to advocate for them like we have heard about today, some of 
these great examples. We think about the lost potential. So not 
every child can even get to a pediatrician, sadly, so I am a 
big fan of school-based health clinics, but we have to make 
sure that we are doing something so that our teachers can play 
this critical role as early as possible in that diagnosis.
    So can we talk about accommodations? I am concerned about 
both for standardized testing and for, for example, college 
admissions that may require a second language. I was interested 
to hear that Representative Brownley's daughter is trilingual, 
which I think is a huge accomplishment for someone with 
dyslexia. So are we doing enough in accommodation? Drs. Eden or 
Dr. Shaywitz or anybody?
    Dr. Shaywitz. I think that people often misunderstand the 
role of accommodations. They may say oh, that is a perk, and it 
is not a perk. In my experience, so many students that I see, I 
say you need this accommodation respond by saying, ``oh, no, I 
am so afraid if I request accommodations, I will stand out, 
people will either think I am not so smart or I am being in the 
system.'' In truth, dyslexic people often can learn to read 
fairly accurately but they don't read automatically or 
fluently, so it becomes very effortful. They have the knowledge 
but they don't have the time, and so one of the most important 
accommodations is the provision of extra time, and--both on 
standardized tests and regular tests but you have to make sure 
that the accommodations are given in a way that doesn't 
embarrass the students. So, oh, Johnny, you are going to stay 
because you need more time, and the individual could just die 
of embarrassment. There are a number of necessary 
accommodations, for example, extra time in a quiet room, 
because when you are not reading fluently or automatically, you 
are using up all your attention so you can be easily 
distracted.
    We also know that dyslexia causes difficulties with word 
retrieval. You know what you want to say but your lips and 
mouth don't form the words so you can be asked ``oh, what is 
that,'' and it is a volcano but the child will utter 
``tornado.'' So teachers have to know that children that have 
word retrieval difficulties maybe shouldn't be given oral 
exams, particularly in front of others, and I just--technology 
can be helpful as well, but right now--and I am very involved 
in this area--students for high-stakes tests requested from a 
testing agency are made to go through obstacle after obstacle 
after obstacle after obstacle, causing many to give up. I know 
a brilliant woman who wanted to go to law school but she kept 
getting rejected for accommodation. We are missing out on 
potential.
    Ms. Bonamici. Lost potential. And my time has expired. I 
yield back.
    Dr. Shaywitz. Mine has too.
    Chairman Smith. Thank you, Ms. Bonamici. The gentleman from 
Arizona, Mr. Schweikert, is recognized.
    Mr. Schweikert. Thank you, Mr. Chairman, and Mr. Brooks, I 
think you may have accomplished something no one has ever done. 
That is the first time we have had an outburst of applause, I 
think, in the Science Committee, and I don't know whether I am 
creeped out by that or I am overjoyed, but that is a different 
discussion.
    To actually try to get to something a little more serious 
because we are actually in an interesting inflection point much 
of this discussion about do we need more science, do we need 
more research or do we need more carrying out what we know, and 
Professor Shaywitz, in your opening statement I want to make 
sure I was listening carefully. You shared that you believe we 
know substantially the protocols that break through. We just 
don't carry them out enough. Was I listening appropriately?
    Dr. Shaywitz. You were, but I would want to add something 
to that, and again, as what Max referred to, if a child isn't 
diagnosed and identified, we can know the protocol but they 
won't receive it.
    Mr. Schweikert. No, I am just--I am one step behind that. I 
am assuming--let us say I have a student population, and we 
have our young people, we have them properly diagnosed. The 
optionality of having a place where they can go where they can 
receive the type of instructions that----
    Dr. Shaywitz. Evidence-based instruction, but there is 
evidence ,too, that the teacher plays an important role. 
Investigators who have studied different reading programs have 
found, in the hands of different teachers, the same program can 
have varying results. So it gets back to the teacher becoming 
knowledgeable and not only knowing the program but having the 
toolbox to use to individualize so it is not like a rote back 
and forth but it is a teacher who knows the child, who knows 
about reading, knows evidence-based programs and can bring it 
all together.
    Mr. Schweikert. Well, you are actually right along a 
policy--it sometimes becomes a policy division and it breaks my 
heart because it shouldn't be. Louisiana, particularly Arizona, 
we are in many ways the charter school state in the Nation. In 
my own community, we have multiple schools that provide 
specialization for dyslexia, for ADD, for other things, and 
through the child and the parent, you know, the ability to have 
that level of parental choice to receive that within our 
charter-school system, and in some ways it breaks my heart that 
I know there are many parts of the country where just that even 
as a discussion is uncomfortable.
    So in some ways I was elated to be hearing your words that 
if we can identify, get the child in a program, great things 
can happen. Now I need more of the embracing of those programs 
around the country.
    Dr. Shaywitz. Yes, absolutely, and I just want to add one 
other thing. I have had the privilege of visiting the Louisiana 
Key Academy, and what you see here is again what colleagues 
have spoken about: it is the whole child that gets the 
attention and support they needs. We have heard about the pain 
and the frustration. What happens when you are in a school that 
totally understands and embraces you instead of pushing you 
away, you get the reading instruction but at the Louisiana Key 
Academy, even the phys-ed teacher, I have met him, programs for 
those students, understands the students, so that they are not 
told you are not trying hard enough but they feel good about 
themselves and they learn. So you have to have the whole child 
in mind.
    Mr. Schweikert. And at one point Massie and I here were 
geeking out on trying to do the statistical probability of 
having two doctorates with the same last name, and not related, 
correct? We almost have the number but we are still working on 
it. He is the guy who went to MIT so--but within Dr. Eden's 
discussion, actually a little bit of both of you, we have great 
technology, we have some great knowledge, but having great data 
when you haven't built the robust systems to carry it out, and 
I am hoping that they are embracing your data at his university 
to carry it out for your information to produce more people 
like Mr. Brooks who I forgot to bring my book because I wanted 
an autograph.
    And the very last thing, Mr. Chairman. Your book was 
actually recommended to me by someone who specializes in 
conflict resolution around the world, and his premise, unlike 
the movie, was saying look, this guy wrote what he thinks would 
happen in different cultures, and somehow you broke through 
with that.
    So with that, Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Schweikert. The gentlewoman 
from Maryland, Ms. Edwards, is recognized for her questions.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you very 
much to our witnesses.
    You know, as I was sitting here and I was thinking, you 
know, to moms and dads, as a mom of a child who has a complex 
of disorders that are dyslexia, dysgraphia, those things, I 
remember the challenge of just trying to get both the school 
system early on to recognize what I knew as a parent when he 
was a toddler and ready to go into kindergarten so complexities 
with the school system, then trying to get the health insurance 
system to recognize that I needed help to be able to pay to 
make sure that he could--that my son could be tested and 
fighting with them actually for a couple of years until finally 
I actually just said you know what? I am not going to pay my 
mortgage this month because I am going to pay for him to be 
tested because I couldn't wait another 4 months or go into 
another school year knowing that I knew that there was a 
problem and I couldn't get the system really to listen. And the 
best thing I did was to go to the Lab School here in 
Washington, D.C., and to have my son tested and then to be able 
to figure out how to work from first grade on to get him the 
kind of interventions and tools that he needed to be able to be 
a success, listening as a parent to educators saying well, here 
are the list of things that he is never going to be able to do, 
not be able to read and not be able-- he will probably never go 
to college so maybe you should think about some kind of skill. 
I had educators tell me that as a parent, and I just said not 
my child on my watch.
    And when I think about parents and the challenges that they 
have with these various systems to be able to fight for their 
children, I just want to thank you all for being here today and 
sharing with us because now as a Member of Congress going into 
so many classrooms where children are set aside and, you know, 
they have, you know, some sort of challenge that doesn't allow 
them to pay attention in the kind of way they need in the 
classroom but they are struggling and instead they are 
described as disruptive and unruly or they are not paying 
attention in the classroom. I think how many millions of 
children we have around this country and that is what is 
happening to them, and I want to ask you, particularly as it 
relates to African American children--and we, you know, focus a 
lot of attention especially by the fourth grade level where we 
see those gaps well before then. I know with my son, by the 
time he was tested going into first grade, the intelligence gap 
in his--and the performance and reading gap was so significant, 
it wasn't until I saw the chart that I realized what was 
happening with him, and so I want to know what it is that we 
really can do with all of these systems to have them integrate 
what needs to happen at the earliest level, at the pre-K and 
kindergarten level so that we don't lose these children through 
12th grade. And so any of you who can, you know, share with me, 
you know, our good doctors about what we can do, because I 
don't want another parent to have to forego a mortgage payment 
because the health insurance system doesn't step up so that 
they can get their child tested.
    Mr. Brooks. Let me say something quickly. I think from an 
emotional and a social point of view, I think the Chairman at 
the very beginning of the session already brought up an amazing 
solution, which is role models, and that is something that the 
African American community already has the drop on as far as 
kids feeling good about themselves, and this is something that 
is very important.
    When I was a kid, there were no role models for dyslexia. 
The only one they knew about was a pole vaulter, which made me 
think, well, that is great; if I want to spend the rest of my 
life jumping over things with a stick, that would help, but I 
think there needs to be an accessible national database of 
successful people with dyslexia in all the fields. So that is 
the first thing you can say to a kid. So the first thing when a 
kid of any background says I am dyslexic, then we say to them, 
yeah, you and Einstein.
    Ms. Edwards. Doctor?
    Dr. Guinevere Eden. I would just like to go back to this 
issue of the fact of what we already know and the fact that 
much of what we know isn't being practiced and implemented and 
the reality out there, and it goes back to different kinds of 
information, one of which, which we haven't mentioned yet here 
but we know from all of you who have spoken about those of you 
who have children with reading problems in your family but also 
maybe not just your children but other family members, and that 
is, if you have dyslexia, the chances that your child will have 
dyslexia are much, much higher, somewhere around 35 percent, 
because it is a genetic--multiple of genes are contributing to 
this. So we know who the children are who are likely to have 
reading problems when they are very small if they have it in 
their family. The kinds of tests that tap into children's oral 
language skills like phonemic awareness that are measured like 
rhyming the way Dr. Shaywitz just described. Those tests are 
out there. There are standardized tests that have been out 
there for years. They are in the classrooms. They could be 
there. They are not being used. They are not being used because 
probably somehow the person who should be using them hasn't 
been taught how to use them and then doesn't know what to do 
with them and then doesn't know what to do next.
    So there is a lot of research, and I think this is the sort 
of general frustration that we are feeling here is that there 
is a lot of lower extremities amongst those who are familiar 
with those tools that they can be used to identify children 
early and then to teach children early, and teaching children 
with dyslexia isn't radically different from teaching other 
children to learn to read. It is many of the same principles. 
It is just that their delivery has to be different. It has to 
be in smaller groups. It has to be more systematic, use other 
techniques to enhance the specific and emphasize specific areas 
but it is not like these are children who have to learn 
completely differently. And so what I think what we are hearing 
here is concern that teachers don't have these tools, and we 
hear this when you go to a conference like those hosted by the 
International Dyslexia Association, you hear the dialog between 
teachers and people who are in research and who do reading 
research, and the teachers say well, we didn't know that, you 
know, nobody taught us that at the school and we just don't 
know that. We didn't know we had these tools to evaluate 
reading or to help them to become skilled readers, so there 
is--the biggest problem is really is making these things 
available and making sure that the people who are using these 
tools are using them in a way that they were intended to be 
used so that the children who are they being used for can 
benefit from it.
    Ms. Edwards. Thank you, Mr. Chairman. My time is long 
expired. Thank you.
    Chairman Smith. Thank you, Ms. Edwards. The gentleman from 
Kentucky, Mr. Massie, is recognized.
    Mr. Massie. Thank you, Mr. Chairman.
    Dr. Shaywitz, I think you helped us all by dispelling a 
couple myths early on, and you were the first to present one of 
the myths I think you dispelled that this is centered in the 
visual cortex. Instead, it is in the center where language is, 
or as one of your charts aptly demonstrated, this is not an IQ 
deficiency. What are some of the other myths that you think we 
should dispel here today?
    Dr. Shaywitz. I see why he is next to me. I need help.
    I think there are a number of myths. One is that dyslexia 
isn't real, that it doesn't exist. You know, schools will say 
we don't believe in it, and I always answer that by saying that 
in religion you can choose what to believe in but dyslexia is 
scientific and factual so that a big myth is that it is not 
real.
    Another myth is that dyslexia affects only boys and not 
girls, and that came about, I think, because of what we found, 
I direct a longitudinal study where we actually tested every 
child, and we found that, schools did identify many, many more 
boys. Why? Because boys were annoying the teachers--boys can be 
boys, and they were chosen by the teacher to be the ones 
evaluated. Girls who would be sitting very properly but not 
reading a word were overlooked, so that is another myth.
    Another myth is that it is not universal--oh, it is just 
here and there. Dyslexia occurs in all parts of the world. I 
wrote a book, Overcoming Dyslexia, and a few weeks ago I was 
surprised to learn that it had been translated into Chinese. So 
dyslexia is universal. It affects every culture, every ethnic 
group, every socioeconomic group and every language system. So 
that is another myth.
    And I think the worst myth is that people who are dyslexic 
are not smart, and one will hear people like Max and others, it 
is an unexpected difficulty, so that means we have had such 
great examples that very bright people can be dyslexic, and I 
for one don't want to hear anymore, ``well, he is dyslexic but 
he is smart.'' It goes together. Why should that be a ``but''? 
I think the belief that people who are dyslexic aren't smart is 
really one of the most harmful and inaccurate myths.
    Mr. Massie. Thank you.
    Well, let me ask one of the smartest guys on the panel 
here, Mr. Brooks, my next question then, because he has helped 
to dispel that myth. I know my kids are a fan of your work. One 
thing that I wanted to ask you, I know we have focused on 
children and teaching here and identifying this early but 
obviously there are adults who never got identified or there 
are folks like yourself who were identified and the learning 
was adapted, you know, for your condition, what do you carry 
into adulthood that you still have to cope with? You know, you 
mentioned sort of humorously that you weren't going to read 
your statement, but what are the things you have to cope with 
still in spite of the care that you received or teaching?
    Mr. Brooks. You know, I would say that most of my books are 
very research-based, which means that when I do my research, 
the challenges are, any time there is a new word, any time 
there is a new phrase so I have to deal with new technologies, 
new cultures, it is always a challenge, and what I learned in 
school I still take with me, which is what I do when I have to 
read is, I listen to the audiobook with the hard copy on my 
lap, so that way I am taking in the information verbally but 
then I am underlying everything in the actual book so then when 
it is over, I don't have to go back to the audiobook, I have 
the hard copy with me. But research is always tough, and it 
always takes me longer. So I still struggle with it all the 
time. In fact, whenever I have a book that is about to come 
out, I always hire a fact checker to make sure--because my 
self-esteem is still iffy--to make sure I got everything right. 
And like in World War Z, I got the weapons systems right, 
Chinese politics right. There was a sporting-goods store a 
block away from my apartment, I put it on the wrong street. I 
got it wrong. So I am always aware.
    Mr. Massie. This is a question for anybody that cares to 
answer. To what extent do you think sometimes parents delay the 
testing because they are worried about a stigma associated with 
their child for being diagnosed with dyslexia? They want to 
hope that their kid can stay, you know, at the mainstream or 
whatever and doesn't need any special attention and the stigma 
associated with that. I mean, do you think that factors in to 
the delay in identifying this? I like Mr. Brooks's 
recommendation that teachers, you know, that is a requirement 
of their certification but what can we tell parents?
    Ms. Antie. I will answer this. I never once worried about 
the stigma my child had. I could care less what they labeled 
him. As long as they gave me a diagnosis and ways to help him, 
I don't care what the diagnosis is, and I am sure every parent 
feels that way.
    As far at the stigma, he already had low self-esteem 
because he couldn't read in front of everybody else. So the 
fact that he got pulled out for untimed testing didn't hurt his 
self-esteem any more than it already was. So I don't think the 
stigma has anything to do with it, personally.
    Mr. Massie. All right. That is good to hear. Well, my time 
is expired. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Massie.
    Let me thank all of our expert panelists today. You have 
contributed much to the subject, and it is just wonderful to 
hear all your stories and all your observations as well. I 
really do think this is one of the best hearings we have ever 
had, and so appreciate especially your participation, and I 
would like to thank everyone in the room as well for helping to 
make this hearing a success.
    A final reminder: When you go out into the hall, turn left 
and join us for lunch and further discussion about dyslexia. 
Thank you all again for being here, and we stand adjourned.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

                   Answers to Post-Hearing Questions
                   
Responses by Dr. Sally Shaywitz

[GRAPHIC] [TIFF OMITTED] 

Responses by Mr. Max Brooks

[GRAPHIC] [TIFF OMITTED] 

Responses by Ms. Stacy Antie

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Peter Eden

[GRAPHIC] [TIFF OMITTED] 

                              Appendix II

                              ----------                              


                   Additional Material for the Record


             Written statement submitted by Matt Mountain,
              Director, Space Telescope Science Institute
                   Professor, Physics and Astronomy,
                      The Johns Hopkins University

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
                                 
</pre></body></html>
